<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-353]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-353
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 18, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
  
  
  

       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 21-325 PDF               WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                                
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 18, 2016
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2

                               LEGISLATION

 Text of the manager's substitute amendment to S. 2795 offered by 
  Senator Inhofe.................................................     4
Text of the amendment offered by Senator Gillibrand..............    52
Text of the amendment to S. 2754 offered by Senator Inhofe.......    62
S. 2816, a Bill to reauthorize the diesel emissions reduction 
  program........................................................    65
S. 1479, a Bill to amend the Comprehensive Environmental 
  Response, Compensation, and Liability Act of 1980 to modify 
  provisions relating to grants, and for other purposes..........    66
S. 921, a Bill to direct the Secretary of the Interior to 
  establish a nonregulatory program to build on and help 
  coordinate funding for restoration and protection efforts of 
  the 4-State Delaware River Basin region, and for other purposes    79
S. 2754, a Bill to designate the Federal building and United 
  States courthouse located at 300 Fannin Street in Shreveport, 
  Louisiana, as the ``Tom Stagg Federal Building and United 
  States Courthouse''............................................    93
H.R. 3114, an Act to provide funds to the Army Corps of Engineers 
  to hire veterans and members of the Armed Forces to assist the 
  Corps with curation and historical preservation activities, and 
  for other purposes.............................................    96
Approved Committee Resolutions..................................100-132
Nomination of Jane Toshiko, of Maryland, to be Assistant 
  Administrator of the Environmental Protection Agency...........   133


                            BUSINESS MEETING

                              ----------                              


                         THURSDAY, MAY 18, 2016

                                        U.S. Senate
                  Committee on Environment and Public Works
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
406, Dirksen Senate Office Building, Hon. James Inhofe 
(chairman) presiding.
    Present: Senators Inhofe, Boxer, Barrasso, Capito, Crapo, 
Boozman, Wicker, Fischer, Rounds, Sullivan, Carper, Cardin, 
Whitehouse, Merkley, Gillibrand, Booker and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    Today, the Environment and Public Works demonstrates once 
again that we are working to get things done. At the conclusion 
of my opening statement, I am going to brag a little bit on 
what all we have gotten done, because we are the committee that 
does things.
    I am pleased we were able to reach a great bipartisan 
compromise on the Nuclear Energy Innovation and Modernization 
Act. After all, innovation has come to the nuclear industry. 
There are many new companies, nuclear startups, in fact, that 
are pursuing concepts that advance safety and so forth.
    You know what I think I will do? I am going to submit this 
for the record because everybody knows what it is in it.
    Anyway, we have several bills today. I want to say 
something about our Committee, and I say this really on behalf 
of Senator Boxer and myself. We have, as Majority, and I am 
sure when you were Majority you did the same thing, have weekly 
meetings of the chairmen of the committees. When it gets around 
to my turn I always say now we will hear from the committee 
that gets things done, unlike the other committees.
    In this Committee, we have the 5-year surface 
transportation bill, first one since 1988; water research, the 
WRDA bill; a bill that we are going to be doing today, chemical 
safety; Water Resources Research Amendments; the Grassroots 
Rural and Small Community Water Systems Assistance Act; 
National Estuary Program, and that was by Whitehouse and 
Vitter, do we have broad extreme support on all ends on these 
bills; the Great Lakes Restoration Initiative; Long Island 
Sound Restoration; Lake Tahoe Restoration; Kennedy Center 
reauthorization; multiple namings after different leaders; 
regulatory relief bills; consideration of nearly 100 GSAs.
    Anyway, it comes down to about 31 total that we have done 
in this Committee alone, so I want to say to my friends on the 
Committee, on the Democrat side and the Republican side, that 
you are doing great work, and better work that any of the other 
committees are doing.
    With that, I will turn it over to Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, I agree with that. I am 
grateful to members on both sides. And I think that our 
friendship has been very important. We know what we can't do 
and we know what we can do. If there were bumper strips that 
each committee had, ours would say ``EPW: The Committee That 
Does,'' because we do well. Now, I wish we could do a little 
bit more given, should I dare say it, climate change, but since 
that is not an area where we can work together, we have made up 
for it in other areas.
    Senator Inhofe. It kind of creeps into every statement. But 
that is fine.
    [Laughter.]
    Senator Boxer. I told you I would not say climate change.
    Senator Inhofe. Well, you did say it.
    Senator Boxer. In any event, I do want to thank you so much 
for this markup today. Senator Carper's Diesel Emissions 
Reduction Act of 2016 will reauthorize the enormously 
successful DERA program.
    Senator Inhofe. Which is another demonstration of working 
together.
    Senator Boxer. His and yours.
    It provides grants to reduce air pollution by retrofitting 
or replacing diesel equipment. This program has delivered, and 
I think it is important that we note this, it has delivered an 
estimated $12.6 billion in health benefits and saved countless 
lives. That is what we can do in this Committee.
    I am proud, also, to be a co-sponsor of the Brownfields 
Utilization, Investment and Local Development Act, called the 
BUILD Act. This legislation reauthorizes EPA's brownfields 
program, which helps revitalize communities with contaminated 
waste sites. It is estimated that there are more than 450,000 
brownfields in the U.S.
    So when we cleanup and reinvest in these properties, we 
increase local tax bases, we facilitate job growth, and we 
allow redevelopment of formerly contaminated lands. And I 
remember when we first did this brownfields bill, it is really 
a landmark bill; it adds to the other landmark bills that this 
Committee is known for.
    We will also consider a bill introduced by Senators Carper, 
Booker, and Gillibrand to help restore the Delaware River 
Basin, and a bill to authorize a program at the Corps to hire 
veterans to assist with historic preservation activities. I 
strongly support these bills.
    Today's agenda also includes a bill to encourage 
development and approval of advanced nuclear reactors, and to 
reform the NRC's fee structure. I had significant concerns with 
the introduced bill, which would have reduced transparency 
during the approval process for new nuclear reactors and 
limited the ability of NRC to collect the fees necessary to 
carry out its oversight responsibilities. I appreciate the work 
by several Senators on the manager's amendment that we will 
consider. This amendment addresses some of the most serious 
concerns in the introduced bill; however, I believe there is 
more work to be done on this bill and I look forward to working 
with the bill's sponsors as this legislation moves forward.
    So, with that, I look forward to today's markup.
    Senator Inhofe. That is great, Senator Boxer. I think we 
are all looking forward to the Oklahoma City Thunder defeating 
Golden State tonight, so we have a lot to look forward to, 
don't we?
    [Laughter.]
    Senator Boxer. The Committee stands adjourned.
    [Laughter.]
    Senator Boxer. You know, the last ones who bragged about 
that lost games two, three, and four, so watch out.
    Senator Inhofe. Oddly enough, we do have 11 here, we have a 
quorum. This can be a very quick meeting, and I hope that you 
will stay. We do need 11 for passage of either legislation or 
to be reported out. We need 7 to approve amendments, but we 
really don't have very many amendments down here.
    So we are going to start with the consideration of a list 
of bipartisan bills. We are going to begin with S. 2795, the 
Nuclear Energy Innovation and Modernization Act. That is 
probably the one that drew the most attention here. So, to 
begin with, I am going to call up the manager's substitute 
package, which was circulated already and everyone has had 
access to it. This substitute will be considered the original 
text for the purpose of the amendment. This is a bipartisan 
package of amendments to S. 2795, co-sponsored by Senators 
Crapo, Whitehouse, Booker, Carper, and Markey, that 
incorporates several bipartisan modifications negotiated with 
these Senators on the NRC fees, modernizing NRC procedures, and 
the feasibility of extending the duration of the uranium 
recovery licenses, which is important to Senator Barrasso and 
several others.
    [The text of the manager's substitute amendment to S. 2795 
offered by Senator Inhofe follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  



    Senator Inhofe. Does any Senator seek recognition to talk 
about this? Then I will be asking for a motion.
    Senator Boxer.
    Senator Boxer. Yes. Thanks very much, Mr. Chairman. I 
support this amendment, appreciate the efforts of the bill's 
sponsors to address some of the concerns in the introduced 
bill.
    This manager's package removes a harmful provision in the 
introduced bill that would have removed a requirement for a 
mandatory hearing prior to approving nuclear licenses or 
permits. In light of the Fukushima disaster, this is the wrong 
approach, and I am so pleased this provision was removed.
    The manager's amendment also provides NRC with increased 
flexibility to adjust fees to meet its safety responsibilities. 
While these changes improve the introduced bill, I believe more 
needs to be done to ensure the bill does not place an increased 
burden on taxpayers and to make sure NRC has sufficient 
resources to meet its safety mandates.
    So I support this amendment and I will probably vote no on 
the bill in the hopes that we can work together as it moves to 
the floor.
    Senator Inhofe. All right.
    Senator Carper. Excuse me, excuse me. Let's start on this 
side.
    Any comments on this manager's amendment?
    Senator Crapo. Mr. Chairman?
    Senator Inhofe. Senator Crapo.
    Senator Crapo. Mr. Chairman, I will be very brief. As one 
of the original co-sponsors of this bill, I want to thank all 
of our members on the Committee for working in a bipartisan way 
to move this forward, particularly yourself as the other 
Republican original co-sponsors, and Senators Booker and 
Whitehouse, and, frankly, Senator Carper, who we worked with 
very closely on this as well, to try to move forward and find 
the right compromises to move this very critical legislation 
forward.
    I have a statement, but if I could just put my statement in 
the record.
    Senator Inhofe. Without objection.
    Senator Crapo. I commend all of us on the Committee for the 
good faith and the good work that we have done to move this 
legislation forward.
    Senator Inhofe. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. My thanks to you and 
particularly Senator Crapo for your good work on this effort. I 
was pleased to join as a co-sponsor of the manager's amendment 
that we have just been discussing.
    If I could, I just want to take a minute. I have a concern 
with the language in the bill that takes away the requirement 
that the industry continue to fund the budget of the NRC by at 
least 90 percent. When we take that requirement away, the 
industry is not happy with that requirement. They haven't been 
happy for a while, as you know. If we take that requirement 
away in order to fund the NRC, we are just going to have to 
fund it out of other appropriations. So I do that with some 
trepidation. I am not going to offer the amendment, not going 
to call for a vote, but I think it is something that we need to 
think about: is this really what we want to do?
    Senator Inhofe. I appreciate your discussing your amendment 
and appreciate more that you are withdrawing it.
    Senator Carper. Which do you appreciate the most?
    [Laughter.]
    Senator Inhofe. All right, anyone else on this side want to 
comment about this?
    Senator Boxer. Can I speak on Senator Carper's point?
    Senator Inhofe. Well, let's see if anyone else on your side 
wants to be heard.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. I just wanted to 
thank you and Senator Crapo and Senator Booker for the original 
work that moved us along. We had a very good hearing on the 
original bill. There was some concern expressed by the Union of 
Concerned Scientists about safety and transparency, and I just 
want to report that they have said that, ``We do not believe 
the revised bill,'' the manager's amendment, ``will have any 
major detrimental impact on public safety and transparency. The 
bill authors have done well to balance their desire to reform 
the licensing process without subjugating the Nuclear 
Regulatory Commission to congressionally oppose mandates, 
allowing the NRC to retain the flexibility it needs to 
independently regulate in the public interest.''
    Reaching that point has been important for us and I 
appreciate the flexibility that everybody has seen to get here. 
I think we remain open to bipartisan amendments that will allow 
this process to go forward. This isn't the end of the process; 
it is an important stage in it. We look forward to working with 
all of our colleagues. But I do think this is a really 
important step forward, and that there are new technologies, 
including technologies that will allow us to turn what is now 
hugely costly and dangerous nuclear waste into potentially 
valuable nuclear fuel; and pursuing that is, I think, an 
important goal for our Country, and I thank again the Chairman 
and the Ranking Member for their leadership in this process.
    Senator Inhofe. Thank you.
    Senator Gillibrand.
    Senator Gillibrand. I just want to thank Senator Booker and 
the other sponsors for taking one of my concerns into account 
by adding a comment period so that communities could have a 
chance to be heard on the placement of plants. It is very 
important to New York State specifically.
    There is another comment I have that we didn't have time to 
include, but I would like to have us consider it on the floor, 
which is to require new plants to have a robust evacuation 
plan; and not just one they do themselves, but one that can be 
certified by FEMA, or both.
    I say this because we have a nuclear facility that has 17 
million people within 50 miles. So if Indian Point had any 
disaster of any kind, there is no possible way to evacuate 17 
million people today. And I have been asking NRC to focus on a 
better plan to actually work on how many lives could we save in 
the instance of a disaster, and they have not given it to me. 
So I really think it is important.
    In rural areas, super easy. We have nuclear plants in areas 
in upState New York where you can evacuate everyone very 
quickly because it is a rural area with wide-ranging roads and 
very robust systems to get people away from a disaster. But 
what we saw after Superstorm Sandy is a warning. What happened 
after Superstorm Sandy was the water levels rose within two 
feet of overcoming the nuclear plant. So if it had risen any 
further, it could have diluted the plant. And there was no way 
to evacuate because, because of the storm, power lines were 
knocked down and made most road systems inoperable.
    So even the 10 mile evacuation zone could not have been 
evacuated if there was a disaster due to Hurricane Sandy. And 
it is just a forewarning that when storms happen, all systems 
break down, and the road system was wiped out.
    So I urge this Committee and members on the floor to add an 
amendment to have a robust review when you are creating the 
plant, setting up the plant, what is your evacuation plan in 
the instance of a disaster.
    Senator Inhofe. First, Senator Booker.
    Senator Booker. I want to just echo some of the thanks, 
especially Senator Crapo. I want to thank Senator Inhofe and 
Senator Whitehouse, as well, for a lot of the original work on 
this, as well as the team effort from a lot of folks who helped 
continually to improve this bill.
    This is what we really should be doing, not just working 
together, but working together to innovate. Next generation 
nuclear is not the nightmarish realities that we see in a lot 
of the challenges around the globe and here at home, and some 
of the difficulties that Senator Gillibrand is rightfully 
pointing out. If we are going to have and embrace a carbon-free 
future, or to decarbonize, nuclear is going to have to be a 
part of it if we are looking to do that very quickly.
    So I am very excited that we are showing pro-innovation 
efforts right here and right now, and I just, again, want to 
thank. This has been a great experience for me, to work in such 
bipartisan fashion to develop such a strong bill, so thank you 
very much.
    Senator Inhofe. Good. Thank you.
    Senator Boxer.
    Senator Boxer. Thanks.
    I am disappointed that we didn't get to vote on Senator 
Gillibrand's evacuation amendment, and also Senator Carper's 
amendment. I just want to take a minute. The work on this bill 
was terrific. This bill has more work to be done. I stood at 
San Onofre Nuclear Power Plant that has been shut down, but it 
is not decommissioned yet. There is more than 5 million people 
within a few miles of this facility. I said to the sheriff, 
what happens in case of emergency, and she said just look at 
the road. And, of course, it is bumper-to-bumper because it is 
Southern California. Forget it. Forget it. And this bill 
doesn't address that.
    This bill doesn't address funding, Senator Carper is 
absolutely right. You take away the funding. And we know, from 
working on the chemical bill, how important it is. If we expect 
the NRC to its job, we expect them to be able to have the 
funding. This is a step back. While we take a beautiful step 
forward in terms of the future, because I agree we are looking 
for a carbon-free future, and I have always said if nuclear is 
safe, it is definitely part of the answer. But if you don't 
have anything in there about evacuations, if you take away the 
source of funding, where are they going to get the funding? We 
are just struggling over funding constantly.
    So that is why I do look forward to this bill coming to the 
floor. I do intend to be heard. I do intend to work with my 
colleagues to make this bill better. And if we can make it 
better, frankly, just in these two areas, I think it will fly 
through.
    I am hopeful that we can work more on this and I do so 
appreciate the bipartisan work that went into it. From where it 
started to where it is now is night and day, and I just want to 
make it that much better when we deal with the fees and we deal 
with the evacuations, because it is very frightening.
    Also, last, I know Senator Gillibrand has a critical 
amendment, critical amendment dealing with safety at the 
plants, and I hope it passes, because if it passes it will give 
this bill many more legs. Thank you.
    Senator Inhofe. All right, others who want to be heard?
    Senator Carper. Mr. Chairman, just one last point, if I 
could. I am going to make a unanimous consent request.
    The reason why I didn't ask for a vote on the amendment 
regarding the funding is because there are changes that I 
sought in the bill and we were able to work out. So in the 
spirit of compromise we didn't push for the recorded vote on 
the 90 percent amendment.
    However, the congressional Research Service has provided us 
with an analysis of the language, and I would like to submit 
that document. This is with respect to funding. I would like to 
submit their documents for the record on this bill, please.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
       
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Chairman, at least month's hearing I raised two 
concerns about the Nuclear Energy Innovation and Modernization 
Act. Specifically, I was concerned that the bill's repeal of 
the mandatory hearing for new construction and operating 
licenses would undermine the public's access to important 
safety information. I also stated my concern about the bill's 
cap on the NRC's collection of fees, which I felt could 
undermine the Commission's safety and security mission by 
reducing its access to needed resources.
    Over the last few weeks the co-sponsors of the bill worked 
closely with me to address both of these issues. The manager's 
amendment to this bill removes the repeal of the mandatory 
hearing and it strengthens the NRC's authority to waive the cap 
on fees if that cap may undermine safety or security. Together, 
the changes that were included to improve on the safety issues 
raised by the Union of Concerned Scientists resulted in 
proposed changes that have considerably improved this 
legislation.
    I want to thank Senators Inhofe and Crapo, Senators Booker, 
Whitehouse, Murkowski and Fischer for their willingness to work 
in a bipartisan manner to address those concerns. The bill's 
authors balanced their desire to enable nuclear innovation by 
reforming the NRC's licensing process with the public interest 
in nuclear safety.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey. Before you came 
in, you were acknowledged and praised for all of your 
bipartisan help on this bill.
    Does anyone seek recognition for the purpose of an 
amendment to the manager's amendment?
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. My amendment 
addresses a very specific issue to this nuclear plant we have 
in New York State called Indian Point Nuclear Power Plant, in 
Westchester County, New York. It is 36 miles from Manhattan. 
And within 50 miles it has more than 17 million people.
    As some of you might know, there has been a series of 
safety issues at Indian Point spanning many years, but the most 
recent problem tops them all. Two months ago the owners of 
Indian Point reported to the Nuclear Regulatory Commission that 
a number of bolts and plates in the Unit 2 reactor were 
degraded.
    These bolts are vital to the safety and operational 
function of the plant. The bolts hold together metal plates 
that direct cooling water as it flows through the reactor core. 
Degraded bolts could allow plates to gap or even separate, 
providing pathways for water to bypass the reactor core. If the 
cooling water leaks out, you can imagine what happens to the 
core.
    And we are not talking about a couple of bolts; we are 
talking about 227 bolts out of 832. That is 27 percent. This is 
the worst case of degradation ever found in a nuclear power 
plant.
    After this failure was reported to the NRC in March, we 
learned that the NRC never required this equipment to be 
sufficiently inspected since the reactor began operating in the 
mid-1970's. No part of a nuclear plant should go four decades 
without sufficient inspection, especially for this problem, 
which was well known by both the industry and the NRC.
    What else could be degraded within these reactors? Why did 
so many bolts degrade? Did the threads where the bolts were get 
stripped? Were the plates damaged from movement or friction as 
a result of the degraded bolts?
    We don't know the answers to any of these questions yet. 
The so-called root cause analysis is still being performed and 
will take a few more months to be completed. In the meantime, 
the NRC is going to allow a restart of Unit 2 in June.
    Opponents of this amendment are going to say that we will 
set a precedent for the NRC handling the degraded bolts issue. 
My response to that argument is that is a very good thing. The 
NRC should be taking this issue much more seriously.
    Therefore, on behalf of our 17 million constituents who 
live within range of the plant, I offer this amendment to force 
the NRC to finish the root cause analysis before allowing Unit 
2 reactor to restart. In addition, this amendment would require 
the NRC to move up the date for inspection for Unit 3 so that 
it is completed by the end of 2016. Until Unit 3 is also 
inspected, we have no way of knowing whether similar 
degradation is happening in that reactor. That is a gamble that 
I am not willing to take on behalf of so many millions of New 
Yorkers.
    So I ask my colleagues to support this amendment.
    And, Mr. Chairman, Senator Carper has suggested a voice 
vote for this, and I accept that.
    [The text of the amendment offered by Senator Gillibrand 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


    Senator Inhofe. All right.
    Let me just make a couple comments. I know the sincerity, 
the concern that you have. You have expressed that. And our 
staff has reached out to try to find an acceptable compromise 
with regard to the amendment, and I still want to do that. 
Senator Gillibrand has raised serious concerns and I want to 
find a serious solution that establishes accountability and 
transparency about the safety at Indian Point. But that takes 
more time than a 24-hour amendment filing deadline allows.
    I have directed, and I know this is something that you 
want, Senator Gillibrand, my staff to request a bipartisan 
briefing from the NRC as soon as possible, I mean immediately, 
and I will be there, in order to gain a clear picture of what 
is being done and the extent of the issue with other plants. 
That is a necessary first step to understand how to craft a 
solution without causing unintended consequences.
    I don't think we should set a precedent of substituting our 
judgment for the NRC's when it comes to determining plant 
safety. So I would oppose that but work very closely with you 
and try to accommodate a solution.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, I truly appreciate your 
interest in this and the fact that you are going to personally 
study it. I do want to say that this is not a 24-hour deal. The 
last time we had a hearing, we did right here, Senator 
Gillibrand brought it up to the NRC. I remember it like it was 
a yesterday, though it was quite a while ago.
    The bottom line is hundreds of degraded and cracked bolts 
were found. This isn't some theory; this is a fact. They were 
found in reactor vessels at the Indian Point Nuclear Power 
Plant in New York, and her amendment would ensure that the 
safety concerns raised by this discovery are fully addressed at 
Indian Point. I share her concern about the safety of this 
plant and believe similar plants have the same issue, and they 
may not know it. In fact, degraded bolts were discovered at the 
Salem Nuclear Power Plant in New Jersey.
    So I am writing to the NRC today to ask the Commission to 
determine whether the issue identified at Indian Point and 
Salem could be a problem at other nuclear plants. Diablo Canyon 
in California has the same exact design, so it is important 
that NRC look at similar plants. So if it is New York and it is 
New Jersey with the same design as California, I think it may 
be more of a problem than we know.
    And I appreciate Senator Gillibrand's leadership on the 
issue. I hear she is not going to ask for a recorded vote, but 
I would like to be noted in the record as having supported it, 
and I will share my letter that I write with everyone who is 
interested. But this is not an overnight 24-hour deal; this is 
a deep concern. I watched my colleague's face as she talked. 
You are talking about millions of people, and here we sit. We 
can do something about it, but, oh, no, we are going to do a 
voice vote and it won't go anywhere today. I think that is a 
mistake.
    In closing, let me say this. If nuclear power is going to 
take its place, it had better be safe. So when you find 
something that is not safe, you are not helping the industry to 
turn away. You help the industry when we make every move to 
make nuclear power safe. People are not stupid. They look at 
Fukushima; they see what happened. Some remember Three Mile 
Island and other disasters.
    So when we make it safe, we make it acceptable. When we 
walk away from safety and we take away the money that is used 
to make it safe, I think we are undermining what we are trying 
to do here, which is to get a carbon-free alternative. That is 
how strongly I feel about it.
    Senator Inhofe. Anyone want to be heard? Senator Sullivan?
    Senator Sullivan. Mr. Chairman, I just wanted to mention a 
principle that I know that we try to focus on in this 
Committee. It is actually very important to me, given my State. 
On issues of very local concern, that the Committee here give 
the members a lot of leeway.
    So this seems to be a very local concern. And when I have 
raised local concerns about my State, I have asked in this 
Committee for my colleagues to give the Senator from the State 
leeway on the issue because you know more about it and maybe 
care more about it than any other members. Unfortunately, that 
hasn't always happened, at least with regard to some Alaska 
issues, because they seem to be nationalized.
    So I am sympathetic to this amendment because it is local. 
She knows more about it, Senator Gillibrand knows more about it 
than probably anyone else, and cares more about it than 
probably anyone else.
    But I am also understanding, Mr. Chairman, of your concern 
about setting a precedent that this Committee somehow 
substitutes its judgment for the NRC's judgment on safety. 
There is no doubt that the experts are at the NRC, not here.
    So I am just wondering if there is any way that there could 
be language in this amendment that absolutely makes it clear 
that this is not a precedent, this is a one-time issue that 
addresses, that we are not going to get involved in overriding 
the NRC. But I am sympathetic to a colleague who is raising an 
issue of very local concern that she knows more about than 
anyone else, and I would welcome that precedent on this 
Committee when issues that come up with regard to other States 
that are very important to the members here, that we get a 
little leeway on those kind of topics, because they certainly 
come up a lot with regard to my State, and we don't always get 
that leeway.
    Senator Gillibrand. Mr. Chairman, just to clarify, all my 
amendment does it ask the NRC to look at it. So we are just 
saying this is something you must look at before you restart. 
So we are trying to give the ball to the NRC. The industry 
doesn't want the oversight. It is the industry who says you 
can't tell us what to do on safety.
    But the only oversight we have is the NRC, so I am 
specifically asking, NRC, please insert yourself here because I 
am so worried about it, and you haven't looked at this in three 
decades. So I am asking the NRC to take some jurisdiction away 
from the industry, who doesn't want anyone to look at their 
stuff. That is why I am trying to give it to them, not us. I 
just said please look at this because I am so worried.
    And I have no one else who is able to look at it; they are 
the only body that could go in and say we are not worried 
because it is 30 percent degraded and 50 percent is the 
breaking point. I need them to say that. I need them to know 
that and say it is not worrying to us. I think 30 percent is 
really close to 50, so that scares the heck out of me. So I 
just want the NRC to take jurisdiction on this, so I am giving 
it to them.
    And it can be a one-time thing. We can put a statement in 
that this is not precedent-creating, if that is amenable.
    Senator Inhofe. OK.
    Senator Carper. Mr. Chairman.
    Senator Inhofe. I just want to respond to Senator Sullivan. 
We are going to be sitting down with them, all collectively, to 
make sure we get something done on this. And, of course, then 
we have the floor. So I hear you and that is exactly what I 
think we are doing.
    Yes, Senator Carper.
    Senator Carper. Just very briefly. You have made a very 
generous offer to Senator Gillibrand and I just urge her to 
accept that, and let's just do a good quick deep dive, not like 
in a couple of months, but like right away. I am not sure how 
soon this bill is going to be on the floor, but it is 
imperative that whatever come out of that discussion, we be 
able to reflect that in the bill on the floor when it comes to 
the floor.
    There are two options here: one, we don't vote on this or 
we vote it down or whatever, do what you are talking about 
doing and then say we are going to address it on the floor, or, 
two, I think follow Senator Sullivan's advice, which I think is 
very good, and vote for it on a voice vote, then do what you 
are talking about doing. And the outcome, I think, will be the 
same. I think this will maybe impart a greater sense of urgency 
to get some changes that I think need to be made, and I suspect 
you do too.
    Senator Inhofe. Yes.
    Did you want to seek recognition, Senator Booker?
    Senator booker. Yes, sir. Thank you very much, Mr. 
Chairman.
    First of all, I just want to say, again, I am excited about 
this bill because it is looking to the future, new innovation 
that doesn't pose these kinds of threats that we are dealing 
with. But that said, if any one of us lived in the shadow of 
this nuclear plant and you had this kind of failure of the 
bolts, that large of a percentage, it really is frightening.
    I sat here as Senator Gillibrand questioned during that 
hearing, and you were receiving wholly unsatisfactory answers, 
and what disturbed me was a lack of urgency about this specific 
plant. If any of us lived in the shadow of that, we would want 
to know the root cause of this problem.
    And now I represent the same metropolitan area that Senator 
Gillibrand represents and, as you said, this is an isolated 
incident in terms of the dramatic number of bolts, but 18 bolts 
were found to be deficient in a New Jersey plant. So what she 
is asking for is what any of us, if we or our families lived in 
the shadow of that plant. We are not afraid of information. 
Let's just have some more transparency about why you have such 
a large percentage of bolts at this one plant.
    I don't want it to take away from the forward-looking bill 
that we have to embrace future technology and innovation in the 
nuclear area that is going to help us to be more carbon-free, 
that is going to help create plants that actually eat this kind 
of fuel, that do many of the opposite things we are afraid of. 
But what Senator Gillibrand is asking for, demanding, has not 
received a satisfactory response, in my opinion, and that is 
why I support her amendment.
    Senator Inhofe. And I appreciate that.
    And thank you, Senator Carper, for your compliment. We are 
very sincere about wanting to get together on this, and I think 
we will.
    Before us we have the Gillibrand amendment. Is there a 
motion?
    Senator Sullivan. Mr. Chairman.
    Senator Inhofe. Yes.
    Senator Sullivan. Just one other thought, and I don't know 
if it is acceptable to Senator Gillibrand, but your commitment, 
as Senator Carper mentioned, to really get the NRC here, have 
them ask questions that satisfy her, and if they don't do that, 
then I think a number of us would be amenable to voting for 
this amendment on the floor.
    Senator Inhofe. I agree with that.
    Senator Gillibrand. Mr. Chairman.
    Senator Inhofe. Yes.
    Senator Gillibrand. So I did ask them. We had the NRC here 
and I asked them all the questions we would ask, and their 
answers were horrible. They basically said, it is not our 
concern; we don't have a concern; industry standard is we have 
redundancy. But they couldn't tell me what level of redundancy 
was safe. They couldn't tell me that 30 percent was unsafe or 
safe. They didn't have information.
    We told the NRC in advance, this is exactly what Kirsten is 
going to ask you about, so please be prepared with answers. We 
had to request answers for the record we have not received yet. 
So they are stonewalling. And, yes, we will have them in again, 
we will ask the same questions, and now they will have more 
notice to prepare the answers they should have prepared months 
ago.
    But their answer was we are not worried and we are not 
going to do this, it is not our job. And they are our only 
overseeing organization. They are the only one who could tell a 
plant we are concerned about this, we want you to do a little 
more. And if they are unwilling to use that authority, when I 
am desperately asking them please use that authority, I feel 
they are not doing their jobs. They are avoiding authority, 
which is absurd. They are the only safety net we have.
    So we had the hearing, we had it, and I used my time to 
drill down and I got nothing. And Senator Boxer was here during 
that time, so she knows they were really nothing answers, side 
steps; we don't know, we are not sure, we will get you that for 
the record. But they couldn't tell me what level of failure is 
safe. They couldn't tell me.
    So it is stressful because, again, we can pass this now 
into the base bill, we can say it is not precedent-setting, and 
then I will get my answer for Indian Point, or we could do it 
on the Senate floor. But when you do it on the Senate floor, 
you don't have the level of expertise that this Committee has. 
They are not going to have the benefit of this discussion. They 
are not going to have the benefit of hearing NRC's answers, 
which I will circulate for you so you can satisfy yourself that 
they did not come prepared and did not give satisfactory 
answers. It is up to this Committee.
    But I appreciate what you said, Senator Sullivan, I just 
think it is a safety risk that I am so frightened about, and I 
just wish this Committee could help me protect those 17 million 
people from something that we don't know whether it would 
happen or not.
    Senator Inhofe. Well, Senator Gillibrand, I anticipate we 
are going to have a big crowd that is going to make sure that 
history doesn't repeat itself on this when we have our meeting 
with them, and hopefully we will have the same number of people 
here. And I will be there and make sure that we do.
    Senator Boxer. When are you doing that?
    Senator Inhofe. I stated as soon as possible, but I would 
say immediately.
    Senator Boxer. Good.
    Senator Inhofe. So we will do that.
    Let's go ahead. You requested a voice vote. The Gillibrand 
amendment, is there a motion on the amendment? Second?
    Senator Boxer. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Inhofe. The ayes do appear to have it.
    [Laughter.]
    Senator Inhofe. I am going to call for a roll call. Clerk, 
call the roll.
    The Clerk: Mr. Barrasso.
    Senator Inhofe. Oh, wait a minute. Barrasso, no by proxy.
    The Clerk. Mr. Booker?
    Senator Booker. Yes.
    The Clerk. Mr. Boozman?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Capito. No.
    The Clerk. Mr. Cardin?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper?
    Senator Carper. Aye.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. No.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Mr. Chairman, the yeas are 9----
    Senator Inhofe. I need to vote.
    Senator Cardin: Mr. Chairman?
    Senator Inhofe. Yes.
    Senator Cardin: Can I be recorded aye in person?
    Senator Inhofe. Yes, of course.
    And you didn't call my name.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    Senator Boozman. Mr. Chairman, could you be recorded also 
as a no in person?
    Senator Inhofe. Live. A live no. Senator Boozman.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. OK.
    Senator Sullivan. Mr. Chairman, may I just make a comment?
    Senator Inhofe. Let me finish with the vote here.
    Senator Sullivan. Oh, I am sorry.
    Senator Inhofe. The motion is not agreed to.
    Senator Sullivan. I know I started this conversation and I 
just want to say I certainly want to work with Senator 
Gillibrand on this, and if she is not satisfied after you--I am 
sure the NRC is watching this debate, and if they come back and 
they are not answering the questions to her satisfaction, I 
certainly would commit to voting yes on this amendment when it 
comes to the floor. And I just wanted to mention that. 
Hopefully we will get it resolved before it comes up, but if it 
doesn't come to the point where she is satisfied for her 
constituents, I certainly would be inclined to give her the 
leeway to vote yes on this amendment if and when it comes to 
the floor.
    Senator Inhofe. Thank you, Senator Sullivan.
    Other amendments to the manager's amendment?
    Senator Crapo. Mr. Chairman, could I just also make a post-
amendment comment here?
    Senator Inhofe. Of course.
    Senator Crapo. As I understand the issue, and I don't 
profess to be the expert on it, one of the problems we have is 
that in order to do the work that the NRC would need to do on 
this reactor, as your amendment would require, Senator 
Gillibrand, the reactor needs to be shut down. And that is a 
very expensive process to engage in, and my understanding is 
there is already a scheduled shutdown in March of next year.
    Senator Gillibrand. That is Unit 3. So Unit 2 is already 
shut down, they already shut it down, so it is about restarting 
it June 1, I think. So we are just saying please investigate 
those baffle bolts before you restart, since it has already 
been shut down.
    Senator Crapo. On Unit 2.
    Senator Gillibrand. On Unit 2.
    Senator Crapo. So it's already shut down.
    Senator Gillibrand. It is already shut down.
    Senator Inhofe. All right.
    Now, is there a motion to adopt the substitute manager's 
amendment to S. 2795 and report S. 2795, as amended, favorably, 
to the Senate? Second?
    Senator Rounds. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Booker?
    Senator Booker. Yes.
    The Clerk. Mr. Boozman?
    Senator Boozman. Yes.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Capito. Yes.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Carper. Aye.
    The Clerk. Mr. Crapo?
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer?
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. No.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker?
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 17; the nays are 3.
    Senator Inhofe. And it is agreed to.
    If there is not objection, we are going to hit all the rest 
of them en bloc. There is no amendments. There is only one 
amendment filed, and that is mine, which is a technical 
amendment to the title on S. 2754. So I would move that 
amendment to S. 2754. Is there a second?
    Senator Rounds. Second.
    Senator Inhofe. Any objection?
    [No audible response.]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
               
    Senator Inhofe. It is agreed to.
    Does any member wish to speak on the remaining items?
    Senator Carper. Just one thing. I just want to thank you 
for taking up the mantle that George Voinovich provided great 
leadership in diesel emission reduction. I thank Senator Boxer 
for her kind words. Everybody is a part of this bill. This is 
something we can be very, very proud of, and thank you all.
    Senator Inhofe. Thank you, Senator Carper.
    Others who want to be heard? Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    You and I, we don't agree on climate change, but we do 
agree that we have to be committed to cleaning up old 
industrial contaminated sites so that they can be reused, and I 
want to thank you for your leadership on this bill and in 
partnering with Senator Boxer and with Senator Rounds and 
Booker and Crapo on this important piece of brownfields 
legislation. There are an estimated 15 million acres of 
potentially contaminated land in America, and in places where 
long industrial histories like Massachusetts we have nearly a 
century's worth of toxic materials that have accumulated in 
sites all across our Country.
    The BUILD Act is critical to cleaning up the decades of 
abuse our lands have experienced at the hands of corporate 
polluters. Cleaning up brownfield sites is a win-win for the 
Country, helping to create jobs and spur economic activity 
while revitalizing underutilized and polluted lands. The 
brownfield grants authorized in the BUILD Act will give 
communities and businesses a chance to return economic 
stability to under-served and economically disadvantaged 
neighborhoods through the assessment and cleanup of abandoned 
industrial and commercial properties, places where 
environmental cleanups and new jobs are most needed. Many of 
those sites may also be good candidates for solar and wind and 
biomass energy production facilities.
    While we still have a long way to go toward cleaning up the 
decades of abuse sustained by our Nation's lands, I am proud to 
have partnered here with my colleagues on this Committee to 
ensure that these brownfield sites are no longer part of the 
problem, but will be part of a clean energy solution, and I 
hope that my colleagues will all support this important bill 
today.
    Senator Inhofe. Thank you, Senator Markey. I want to say 
you mentioned brownfields. Of course, that is one of the things 
we are acting on right now, and there is no better model for 
it, I would invite everyone to come to Oklahoma City, maybe 
after the game tonight, and see the Bricktown in Oklahoma City 
that is exactly what we should be doing all over America, and 
we are going to be able to do more of that with this.
    Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, as a Rhode Island member 
on the Committee, I just wanted to put in a word of 
appreciation for the Senators Chafee, father and son, who 
championed this brownfield legislation for so many years. Of 
course, I will be glad to support it, but their work is 
entitled to some recognition.
    Senator Carper. Mr. Chairman, could I just ask to be added 
as a co-sponsor of S. 1479, the brownfields legislation? Thank 
you.
    Senator Inhofe. Anyone else want to be heard? If not, is 
there a motion to report S. 2816, S. 1479, S. 921, S. 2754, as 
amended, and H.R. 3114, the GSA resolutions and the nomination 
of Jane Nishida, en bloc? Is there an objection? If not, is 
there a motion?
    Senator Carper. So move.
    Senator Inhofe. Is there a second?
    Senator Capito. Second.
    Senator Inhofe. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it and they are adopted.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
   
        
    Now, without objection, the legislation and resolutions and 
nomination are reported favorably to the Committee. Any 
Committee member wishing to have their vote registered in the 
negative for an item in that bloc, as long as it doesn't affect 
the result of the vote, may do so. Simply notify our staff.
    I ask unanimous consent that the staff have authority to 
make technical and conforming changes to the measure approved 
today.
    With that, our meeting is at an end. Thank you.
    [Whereupon, at 10:25 a.m. the committee was adjourned.]

                                 <all>
</pre></body></html>
